<html>
<title> - DETENTION AND REMOVAL: IMMIGRATION DETAINEE MEDICAL CARE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        DETENTION AND REMOVAL: 
                   IMMIGRATION DETAINEE MEDICAL CARE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2007

                               __________

                           Serial No. 110-53

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
38-115                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            OCTOBER 4, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Mr. Gary E. Mead, Assistant Director for Detention and Removal, 
  U.S. Immigration and Customs Enforcement, accompanied by 
  Timothy Shack, M.D., Medical Director, Immigrant Health 
  Services
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mr. Francisco Castaneda, former detainee
  Oral Testimony.................................................    13
  Prepared Statement.............................................    17
Ms. Edwidge Danticat, Author and Niece of Reverend Joseph 
  Danticat, deceased detainee
  Oral Testimony.................................................    44
  Prepared Statement.............................................    45
Ms. June Everett, sister of Sandra Kenley, deceased detainee
  Oral Testimony.................................................    47
  Prepared Statement.............................................    49
Mr. Tom Jawetz, Immigration Detention Staff Attorney, ACLU 
  National Prison Project
  Oral Testimony.................................................    53
  Prepared Statement.............................................    56
Mr. Allen S. Keller, M.D., Associate Professor of Medicine, New 
  York University School of Medicine
  Oral Testimony.................................................    61
  Prepared Statement.............................................    63
Ms. Cheryl Little, Executive Director, Florida Immigrant Advocacy 
  Center
  Oral Testimony.................................................    68
  Prepared Statement.............................................    71

                                APPENDIX

Material Submitted for the Hearing Record........................   119


                         DETENTION AND REMOVAL:
                   IMMIGRATION DETAINEE MEDICAL CARE

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Berman, Sanchez, Conyers, 
and King.
    Staff Present: Ur Mendoza Jaddou, Majority Chief Counsel; 
David Shahoulian, Majority Counsel; Andrea Loving, Minority 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. I would like to welcome the Subcommittee 
Members, our witnesses, members of the public to the 
Subcommittee's hearing on immigration detainee medical care.
    According to the General Accountability Office, GAO, nearly 
300,000 men, women and children were detained by Immigration 
and Customs Enforcement, otherwise known as ICE, in 2006, 
tripling the amount of 2001 when less than 100,000 were 
detained.
    With a large increase of detainees in ICE custody, it is 
incumbent upon this Congress to ensure that ICE is properly 
executing its responsibility of providing safe and humane 
treatment of detainees in their custody.
    Recent reports suggest that ICE is not doing its job. In 
just the last few years, there have been several reports of 
individuals detained by ICE that suggest unsafe and inhumane 
treatment in ICE in contracted detention facilities.
    For example, the Boston Globe recently reported the case of 
a man who died in ICE custody due to epilepsy complications 
despite the fact that his sister twice attempted to provide 
necessary medication to detention officials, according to his 
family. His sister says she was turned away both times.
    Another reported case involves Victoria Arellano, who was 
taken off HIV drugs while in custody and subsequently died 
after serious complications and lack of appropriate medical 
care for several months. Reports indicate that fellow inmates 
tended to as much care as they could possibly provide on their 
own and repeatedly informed detention officials of Arellano's 
illness.
    These and other cases have spawned questions from several 
Members of Congress, but so far few answers have been provided.
    There are two critical questions I hope we can address 
today. First, are the medical care standards employed by ICE 
satisfactory so as to create an environment that supports safe 
and humane treatment of individuals in ICE custody? Second, if 
those standards are adequate, are they being implemented in an 
appropriate manner?
    After a preliminary review of the standards and the various 
reports on the administration of medical care, it appears we 
could have problems on both levels.
    The DIHS Medical Dental Detainee Coverage Services Packet 
specifically states that medical care in ICE detention 
facilities is to be provided primarily for emergency care. Care 
for, and I quote, ``accidental or traumatic injuries incurred 
while in the custody and acute illnesses is not required but 
simply reviewed for appropriate care. Care for other illnesses, 
including pre-existing illnesses that are serious but not life 
threatening, is also not automatic but simply reviewable for 
appropriate care.''
    Furthermore, these reviews are conducted in Washington, 
D.C. by nurses, not physicians, who are away from the patients 
and simply reviewing paperwork submitted by other health care 
professionals recommending such care.
    With this policy, it is no wonder there are reports of 
unsafe and inhumane medical treatment in ICE custody. This 
policy fails to recognize a fundamental principle of medical 
care in detention. The patient is detained and there is no 
other option but care authorized by ICE. Yet the policy only 
ensures emergency care and considers other care even in serious 
cases on a case-by-case basis.
    I hope that today's hearing will help us further understand 
and clarify the problems that exist in providing medical care 
to those in ICE custody so that we may begin to find solutions 
to what appears to be a very serious problem.
    I would now recognize our distinguished Ranking Member, 
Congressman Steve King, for his opening statement.
    Mr. King. Thank you. First, I want to tell you and thank 
you on your willingness to work together and to ensure that 
U.S. Immigration and Customs Enforcement has the opportunity to 
give its side of the story at the same time as the statements 
made by the other witnesses are made here and an opportunity to 
respond and rebut if necessary.
    Earlier this week I was concerned that ICE wouldn't get 
that opportunity, but they will have today, and I appreciate 
that.
    We all agree that when a person is in Government custody, 
he or she should receive adequate medical care. The issue 
before us today is whether or not ICE detainees are receiving 
that adequate medical care. Since American taxpayers pay over 
72 million each year for ICE detainee health care, we should 
ensure that the care is cost effective and that it is 
competent.
    Much has been made in media reports about the number of 
detainee deaths while in ICE custody. And so I began to ask 
some questions about that, and I think it has been reported 
that 25 deaths in ICE custody for the fiscal year 2004, 16 
deaths in the fiscal year 2005, 17 deaths under ICE custody in 
2006 and 11 in fiscal year 2007, although that may go up 
because I don't think we actually have the final number on 
that. But when you look at the total number of ICE detainees in 
those years, it means the chance of death in 2004 while under 
ICE custody was one in 8,196.
    And in 2005 it was one in 12,912. In 2006 it was one in 
13,288 and so far in 2007 the chance of death while in ICE 
custody one in 23,146.
    Those numbers don't mean very much, Madam Chair, until you 
compare them then to the death rate in our Federal Bureau of 
Prisons, which is one in 603 for 2006, one in 761 in 2007. The 
State prison death rate was one in 466 in 2005 and one in 464 
in 2004, one in 459 in 2003.
    But finally the death rate in local prisons was as high as 
one in 1,519 in 2005, one in 1,376 in 2004 and one in 1,425 in 
2003.
    And so I will recognize that this is a total number of 
inmates that have passed through these institutions during 
these periods of time. And I will recognize that there is a 
faster turnover during ICE incarceration than certainly our 
Federal penitentiary and certainly for our local institutions, 
but, regardless, when you make adjustments for that, it appears 
that the fatalities under ICE are--if they are atypical of that 
under other institutions, they appear that they are lower. And 
so those odds of death are safer in ICE institutions, by these 
statistics at least.
    And in December of 2006, DHS Inspector General issued a 
report in which he found instances of noncompliance with ICE 
detention medical standards at four of the five detention 
facilities that were studied.
    After that, ICE convened a working group to review the 
national standards and detention management control worksheets. 
The working group made several recommendations with ICE, and--
that ICE is continuing to implement. Many of the ICE detention 
centers have more than adequate medical facilities. I have a 
couple of posters that will be on display down here that show 
the type of facilities at some of these centers. They seem to 
have updated equipment and respectable personnel.
    I would just like to mention one additional point. The 
death rates for ICE detainees do not even come close to the 
accidental and illness death rates of those serving in the 
active duty U.S. Military. For instance, in 2006, one in 2,004 
military personnel died by accident or illness. And in 2005, 
that was one in 1,509. And in 2004, it was one in 1,614.
    So I think we need to take an objective look at this. Yes, 
we have a responsibility, as this Congress has accepted 
sometime well over 100 years ago, to provide quality health 
care for the inmates in all of our institutions, including the 
ICE detention centers, and I just ask that we want to see ICE 
meet those standards, meet their own guidelines, have a system 
in place to have that check on services that are provided, and 
then put it in the perspective of the fact that people don't 
live forever and they die in some places, and if there are 
reasons for that for a single individual, we ought to look into 
that, but I don't see at this point that the statistics support 
the idea that there is an endemic flaw in the ICE health care.
    So I am interested in the testimony, and Madam Chair, I 
appreciate this hearing, and I would yield back the balance of 
my time.
    Ms. Lofgren. I would now like to recognize the Chairman of 
the Committee, Mr. Conyers, for his opening statement.
    Mr. Conyers. Thank you, Madam Chairwoman.
    This is an important hearing. I am still complaining about 
the fact that immigration ended up in the Department of 
Homeland Security, but I am trying to give it up with some 
grace.
    I am drawn to this hearing not only by the fact that 
immigration detention deaths are being examined out of the 
Immigration Customs Enforcement, but the fact that we have a 
Haitian presence here today. I am really pleased that we have 
got attorney Cheryl Little, who has been working in this area 
and is the head of the Florida Immigrant Advocacy Center for so 
many years.
    When I first began going to Haiti, I was in touch with the 
lawyers and other leaders that were working with her on the 
Haitian immigration crisis. Today, we have the pleasure of 
having her before us and also to have the distinguished writer, 
Ms. Edwidge Danticat, a Haitian of great distinction in terms 
of our literary contributions. I am very pleased that she is 
here as well.
    Now for me, this coincides perfectly because I am going to 
Haiti this weekend, and I will be joining Dr. Ron Daniels of 
New York and many others there. This plays into an issue, and 
hovering in this background is this double standard on 
immigration policy with reference to Haitians that come to this 
country.
    There are two policies: There is a standard and then there 
is the Haitian policy. And counsel for Ms. Lofgren advises me 
that we are putting together a very close examination of what 
these two different policies are and what they mean.
    This hearing is important to me for all of those reasons, 
and I will ask unanimous consent to put my written remarks into 
the record.
    And thank you.
    Ms. Lofgren. Without objection, so ordered.
    If the Ranking Member of the full Committee comes, he would 
certainly also be permitted to submit his statement.
    We have been called away to votes on the floor of the 
House, and so we are going to go and comply with our obligation 
there.
    I would just like to note that under the rules of this 
Committee, testimony is due to the Committee 48 hours in 
advance. Sometimes people are a little bit late but I will note 
that what the Government handed me was still hot when I got it 
coming in here, and I recall when Jim Sensenbrenner chaired the 
Immigration, chaired the Judiciary Committee and the head of 
then INS came and did the same thing, he refused to let him 
testify.
    Now there has been a discussion. The minority is saying are 
we going to allow this. My inclination would be to allow it, 
but to note that this really falls way below what we expect of 
our witnesses and especially the Government with all of the 
resources.
    So we are going to sort this out. We will have our staffs 
discuss it and make sure we are all on the same wavelength.
    We are going to recess the hearing until a certain time so 
people can go get a cup of coffee or something, not just sit in 
the room, and we will try and be back here about 2:30, and so 
we will see you all then.
    And we are in recess until 2:30.
    [Whereupon, at 1:20 p.m., the Subcommittee was in recess, 
to reconvene at 2:30 p.m., this same day.]
    [2:40 p.m.]
    Ms. Sanchez. [Presiding.] In the interest of time, I want 
to apologize to our witnesses, we have no control over the vote 
schedule. But I appreciate your patience. And because of our 
busy schedules and the fact that more votes are likely to be 
called, I would ask that other Members submit their written 
statements for the record.
    Without objection, all opening statements will be placed 
into the record.
    Without objection, the Chair is authorized to declare a 
recess of the hearing at any point.
    We have two distinguished panels of witnesses here today to 
help us consider the important issues before us. I am pleased 
to welcome Gary Mead, the assistant director of management in 
the Office of Detention and Removal Operations at Immigrations 
and Customs Enforcement. Prior to joining ICE in 2006, Mr. Mead 
served with the U.S. Marshal Service. He worked as the 
associate director for administration, the associate director 
for operations support, and the assistant director for 
management and budget. He holds his bachelor's degree from the 
State University of New York, a master's from Bowling Green 
State University, and graduated from the management program of 
the National Defense University here in Washington. Welcome, 
Mr. Mead.
    Mr. Mead is joined by Dr. Timothy Shack, medical director 
at the Immigrant Health Services to assist in responding to any 
questions that we may have for Mr. Mead.
    Mr. Mead and Dr. Shack, again, thank you for joining us. We 
have just gotten a bell, but I am going to ask you to go ahead 
and begin your testimony because I think we should be able to 
accommodate your testimony before we head across for votes.
    At this time I would invite you to give us your oral 
testimony.

TESTIMONY OF GARY E. MEAD, ASSISTANT DIRECTOR FOR DETENTION AND 
REMOVAL, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, ACCOMPANIED 
  BY TIMOTHY SHACK, M.D., MEDICAL DIRECTOR, IMMIGRANT HEALTH 
                            SERVICES

    Mr. Mead. Thank you, Madam Chairman and distinguished 
Members of the Subcommittee, it is my privilege to appear 
before you to discuss the medical care of immigration 
detainees.
    DRO's core mission is the apprehension, detention, and 
removal of deportable aliens. In carrying out our mission, one 
of our highest priorities is to provide the best possible 
health care to those in our custody.
    DRO partners with the U.S. Public Health Service's Division 
of Immigration Health Services to provide detainee health care. 
DIHS includes more than 600 doctors, nurses, and other health 
care professionals. During fiscal year 2007, DRO spent almost 
$100 million on detainee health care to ensure the highest 
quality health care, DIHS medical facilities must be in 
compliance with the applicable health care standards from the 
American Correctional Association, the National Commission on 
Correctional Health Care, the Joint Commission, and the ICE 
National Detention Standards.
    During fiscal year 2007, approximately 300,000 individuals 
passed through ICE custody. Approximately 25 percent of these 
detainees had chronic health care problems including 
hypertension and diabetes. Many of these detainees first 
learned of these conditions as a result of the health screening 
and medical exams they received while being processed into 
custody. They received the appropriate medical treatment for 
their conditions that they would otherwise not likely have 
received.
    ICE health care policy requires that all detainees receive 
an initial health screening upon arrival at a detention 
facility to determine the appropriate medical, mental health, 
or dental treatment that is needed. Included in this process is 
either a chest x-ray or a skin test for TB. Immediate attention 
is provided to those detainees who present a danger or 
immediate risk to themselves or others, such as infectious 
diseases, uncontrolled mental health disorders, or conditions 
that would deteriorate if not immediately seen by medical 
personnel.
    Detainees also receive a physical examination within 14 
days of arrival to identify medical conditions requiring 
monitoring or treatment. A detainee with a medical condition 
requiring followup treatment will be scheduled for as many 
appointments as needed, including to outside medical providers 
or facilities.
    ICE standards also require that all detainees have access 
to sick call. Procedures are in place to ensure that all sick 
call slips are received by the health care service provider in 
a timely manner. All facilities are required to have regularly 
scheduled times when medical personnel will be available to see 
detainees. In emergencies, medical staff or 911 are called 
immediately.
    During fiscal year 2007, as of June 30, DIHS completed more 
than 518,000 total medical visits, including 138,000 intake 
screenings, 12,000 dental visits, 16,000 mental health visits, 
41,000 short stay unit visits, 134,000 chronic disease visits, 
64,000 physical exams, 71,000 sick call visits. By July 31 of 
last fiscal year, DIHS had filled more than 170,000 
prescriptions and completed more than 427,000 pill line 
distributions. By the end of August 2007, DIHS had completed 
more than 124,000 x-rays.
    The DIHS managed care program has a benefit package 
described in the health care services available to all ICE 
detainees. The services address imminent threats to life, limb, 
hearing, or sight, rather than elective or nonemergency 
conditions. Conditions that would cause suffering or 
deterioration of a detainee's health are also covered. This 
program has a network of more than 500 hospitals, 3,000 
physicians, and 1,300 other health care facilities that provide 
a wide range of medical services.
    Detainees who require medical care beyond what can be 
provided at the detention facility access that care through 
treatment authorization requests. TARs are submitted to the 
DIHS managed care program. More than 40,000 TARs are submitted 
each year. The average turnaround time for a TAR is 1.4 days, 
with 90 percent being approved. Specialized procedures 
regularly approved through the TAR process include heart 
surgery, cancer treatment, dialysis, and a variety of general 
surgical procedures including gallbladder, appendicitis, and 
orthopedics.
    Before I conclude, I would like to make a few quick 
comments regarding detainee deaths. During the past 4 years, 
approximately 1 million people have passed through our custody. 
Unfortunately, 66 have died. We are always saddened by the 
death of a detainee. DRO reports all death to the Office of 
Professional Responsibility, the DHS Office of the Inspector 
General, local medical authorities or coroners who frequently 
perform autopsies. DIHS also conducts an independent review of 
all custody deaths.
    I would like to thank you, Madam Chairman and Members of 
the Subcommittee, for the opportunity to appear before you 
today, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Mead follows:]

                   Prepared Statement of Gary E. Mead

    Good afternoon, Chairwoman Lofgren and distinguished Members of the 
Subcommittee. My name is Gary Mead, and I am the Assistant Director of 
Detention and Removal Operations (DRO) at U.S. Immigration and Customs 
Enforcement (ICE). It is my privilege to appear before you to discuss 
the medical care and treatment of immigration detainees.
    DRO's core mission is the apprehension, detention, and removal of 
inadmissible and deportable aliens. In carrying out our mission, one of 
our highest priorities is to provide the required health care to those 
in our custody. We take this responsibility very seriously and have 
created an outstanding detainee health care program, of which we are 
very proud.
    DRO partners with the U.S. Public Health Service's (PHS) Division 
of Immigration Health Services (DIHS) to provide or arrange health care 
for ICE DRO detainees. DIHS staff consists of more than 600 doctors, 
nurses, and other health care professionals. During Fiscal Year 2007, 
DRO spent almost $100 million on detainee health care.
    To ensure the highest quality of health care delivery services, 
DIHS medical facilities must be in compliance with applicable health 
care standards from the American Correctional Association (ACA), the 
National Commission on Correctional Health Care (NCCHC), the Joint 
Commission, and the ICE National Detention Standards.
    During Fiscal Year 2007, approximately 300,000 individuals passed 
through ICE custody.
    At a minimum, two examinations must be performed on every detainee. 
It should be noted that approximately 25% of these detainees have 
chronic health care problems, including hypertension and diabetes. Many 
of these detainees first learn of these conditions as a result of the 
health screening and medical examinations they receive while being 
processed into custody. They then receive the appropriate treatment for 
their condition that they would have otherwise not likely have 
received.
    ICE health care policy requires that all detainees receive an 
initial health screening immediately upon arrival at a facility to 
determine the appropriate medical, mental health, and/or dental 
treatment that is needed. Included in this process is either a chest x-
ray or skin test for tuberculosis. Immediate attention is provided to 
detainees who present a danger or an imminent risk to themselves or 
others, such as infectious diseases, uncontrolled mental health 
disorders, or conditions that would deteriorate if not addressed 
immediately by medical personnel.
    In addition to the initial health care screening, ICE policy also 
requires that detainees receive a health appraisal and physical 
examination within 14 days of arrival to identify medical conditions 
that require monitoring or treatment. A detainee with a medical 
condition requiring follow up treatment will be scheduled for as many 
appointments as needed. Scheduled visits include appointments made in 
advance for ambulatory care or specialty care clinics. Unscheduled 
visits are performed as needed to attend to emergent or urgent 
conditions.
    During screenings, evaluations, and visits, a medical professional 
assesses the detainee's health and treatment requirements and arranges 
any medications, consultations, or other services needed. If language 
difficulties prevent the health provider or officer from directly 
communicating with a detainee for purposes of completing a medical 
screening or health evaluation, the officer is required to obtain 
translation assistance. ICE most commonly provides translation services 
through our contracts with AT&T and Languages Services Associate, Inc.
    In addition to the initial screening and medical evaluation, the 
ICE standard on Medical Care requires that all detainees, regardless of 
classification, have access to sick call. Detainees have the 
opportunity to request health care services provided by a physician or 
other qualified medical officer in a clinical setting. Procedures are 
in place to ensure that all request slips are received by the health 
service provider in a timely manner.
    The sick call process allows detainees to access non-emergent 
medical services, and all facilities are required to have regularly 
scheduled times when medical personnel will be available to see 
detainees who have requested services. For emergent or urgent medical 
services, detainees may notify a correctional officer or other facility 
personnel at any time that a problem occurs, and medical staff or 911 
will be called immediately.
    In Fiscal Year 2006, DIHS staff had more than 491,000 detainee 
visits. These visits included 16,000 dental, 17,000 mental health, 
28,000 short stay unit visits, 150,000 chronic disease visits, 54,000 
physical exams, 61,000 sick call visits, and 327,000 pill line 
distributions. DIHS also completed more than 103,000 chest x-rays 
during intake screening.
    As of June 30, 2007, DIHS showed an increase in total caseload with 
more than 518,000 total visits, broken down as 138,000 intake 
screenings, 12,000 dental, 16,000 mental health, 41,000 short stay unit 
visits, 134,000 chronic disease visits, 64,000 physical exams, 71,000 
sick call visits, and 427,000 pill line distributions.
    Medical care provided at each detention facility also includes 
access to necessary prescription medications. Prescriptions written for 
detainees by the health service provider are filled either by an on-
site pharmacy or by a local community pharmacy. If a prescription 
medication is not readily available and a detainee has a supply of the 
medication needed or can obtain a supply of the medication from a 
family member, that medication may be used as long as the facility's 
medical staff can verify the validity of the medication to ensure it is 
appropriate for the detainee to take and to prevent contraband from 
entering a facility. By July 31, DIHS had filled more than 170,000 
prescriptions, already exceeding the more than 136,000 prescriptions 
filled in Fiscal Year 2006. By the end of August 2007, DIHS had 
completed more than 124,000 chest x-rays.
    The ICE Medical Program has an established covered benefits package 
that delineates the health care services, medical products and 
treatment options available to any and all detainees in ICE custody. 
The ICE covered services package emphasizes that benefits are provided 
for conditions that pose an imminent threat to life, limb, hearing or 
sight, rather than to elective or non-emergent conditions. Medical 
conditions which the local treating physician believes would cause 
suffering or deterioration of a detainee's health are also assessed and 
evaluated through the DIHS Managed Care Program. The DIHS Managed Care 
Program has a network of more than 500 hospitals, 3000 physicians, and 
1300 other health care facilities that provide a wide range of medical 
care and services.
    Detainees who require medical care beyond what can be provided at 
their detention facility, access that care through Treatment 
Authorization Requests (TARs), which are submitted to the DIHS Managed 
Care Program. More than 40,000 TARs are submitted each year. The 
average turnaround time for a TAR is 1.4 days with 90 percent of 
requests being approved. Specialized procedures regularly approved 
through the TAR process include heart surgery, cancer treatment, 
dialysis, and a variety of general surgical procedures including gall 
bladder, appendicitis, and orthopedics. In fiscal year 2006, there were 
465 hospital admissions.
    Before I conclude, I would like to make a few comments regarding 
ICE detainee deaths. During the past four years approximately 1 million 
persons have passed through our custody. Unfortunately, 64 have died. 
We are always saddened by the death of a detainee in our custody.
    DRO reports all detainee deaths to the ICE Office of Professional 
Responsibility (OPR) and the DHS Office of the Inspector General (OIG) 
so that they have an opportunity to determine if an investigation into 
the circumstances of the detainee's passing is warranted. Deaths are 
also routinely referred to the local medical examiner or coroner's 
office who will conduct an autopsy if required. DIHS also conducts an 
independent review of all in-custody deaths.
    While a single death of an ICE detainee is serious matter, the ICE 
Detainee Health Program has an overall death rate that is well below 
those in comparable detention or correctional settings. ICE detainee 
death rate per 100,000 detainees, based on the number of detainees 
booked into custody per Fiscal Year, was ten deaths in Fiscal Year 
2004; seven deaths in Fiscal Year 2005; and seven deaths in Fiscal Year 
2006. The comparatively low death rate among ICE detainees is 
remarkable, given that many of the ICE detainees have a history of poor 
or no health care before coming into ICE's custody.
    In conclusion, our comprehensive detainee health program is based 
on state of the art medical care, sound management, continuous review 
and process improvement. DIHS staff consists of highly motivated 
correctional health care professionals who are dedicated to providing 
high quality services. The scope of ICE's medical services and 
operational processes is continually monitored by both internal and 
external healthcare experts with the ultimate goal of providing the 
best possible health care to those in our custody. As I mentioned at 
the start of my statement, the well being of our detainees is among our 
highest priorities and we take this responsibility very seriously.
    I would like to thank you, Ms. Chairwoman and Members of the 
Subcommittee, for the opportunity to appear before you today, and I 
look forward to answering any questions you may have.

    Ms. Sanchez. Thank you for your testimony, Mr. Mead. 
Unfortunately, the bells beckon and we have votes on the floor. 
I think this is a natural point in time to take a break to head 
over for votes. When we come back, we will begin with 
questioning, and we appreciate that both of you will be 
available for that. Again, I beg your indulgence and I 
recognize your patience, and we will be back from voting as 
quickly as possible.
    We stand in recess.
    [Recess.]
    Ms. Lofgren. [Presiding.] The Subcommittee will come back 
into order.
    At this point I understand that the testimony has been 
concluded, and we will go into questions for our witnesses; and 
I would turn first to the Ranking Member, Mr. King, for his 5 
minutes of questions.
    Mr. King. Thank you, Madam Chair.
    And, Mr. Mead, thanks for your testimony.
    As I look through some of the material that you provided 
preliminarily to your testimony being submitted, I notice here 
that of the--in this material, it says 27,500. I think you 
testified 30,000 would be the number of beds that are available 
in a given year. So that would be the snapshot of the number of 
inmates that you could max out at.
    I am presuming that. I will let you define that more 
precisely in a moment.
    But as I also look at this information, it says 65 percent 
are located in State and local prison jail facilities, 19 
percent are in commercial contract facilities and 14 percent 
are in ICE-owned service processing centers; that leaves 
another 2 percent there for the Federal Bureau of Prisons.
    My question is, of these fatalities that are the subject of 
this hearing, how many of those fatalities took place in the 
State and local prisons that are--represent the 65 percent of 
the overall inmates; how many took place in ICE commercial--in 
the commercial facilities; how many took place in ICE 
facilities? Can you break that down?
    Also, I would presume that the medical care in those State 
and local-run facilities--at 65 percent, I would presume that 
medical care would be identical to that of the other inmates 
that are incarcerated in the same facilities.
    Could you shed some light on those components as part of 
the question that I have asked you?
    Mr. Mead. Yes.
    Off the top of my head, I can't break down those 66 between 
State and local contract or Government-owned and operated, but 
the 66 were the total deaths from everyone in our custody.
    The State and local facilities in most cases come under the 
same accreditation requirements as the Federal facilities do, 
and they answer to State authorities, county authorities; and 
many, as I said, have exactly the same accreditation as ours.
    In addition, when it comes to housing our detainees, they 
must be in compliance with our ICE detention standards; and 
those detention standards are applied to our own facilities, 
our contract facilities, and the State and local facilities.
    So you are correct that the care received across the board 
is relatively consistent.
    Mr. King. Do those health care practitioners, though, in 
our State and those that--of that 65 percent, say, primarily in 
our State institutions and the local, are they the same health 
care providers in most instances as they are for the other 
inmates in the same institution?
    Mr. Mead. Yes. Whatever health care program county inmates, 
for example, are afforded and whoever is providing that health 
care--our detainees are ICE detainees--get the same medical 
program.
    Mr. King. Then if there is an issue here of, I will say, an 
unusual number of deaths, which I don't know that the 
statistics support--if there is an issue here, wouldn't it be 
an issue then that cast that same question for the balance of 
the inmates within those facilities that two-thirds of the ICE 
inmates are incarcerated in?
    Mr. Mead. Yes. If there were an aberration there, it would 
be applied across the same or the entire population at that 
county facility, because our detainees do not get special 
health care while in there.
    However, if there is health care required beyond what the 
county jail can provide, we do manage that centrally through 
DIHS, and we can remove them from that facility and provide 
health care elsewhere. And it is not a reflection on the 
county; it is just a reflection on what their----
    Mr. King. I will submit at least one question to be 
answered after this hearing, at least one, and that one will be 
the question that asks you to break down those deaths into 
those categories which are ICE facilities and those which are 
ICE-approved facilities.
    Within those actually four different categories, I ask you, 
do those deaths include suicides or homicides?
    Mr. Mead. They include suicides; and during the past 4 
years, we have not had a homicide.
    Mr. King. Can you tell me how many are suicides out of the 
66?
    Mr. Mead. I would say it is approximately 13 over the past 
4 years. I can confirm that after the fact, but I would say it 
is about 13.
    Mr. King. Thirteen of 66. And then the numbers that show 
the deaths for 2007 shows 11 with the data that I have. Is that 
a current number and does that complete the fiscal year?
    Mr. Mead. As far as I know, that completes the fiscal year.
    Mr. King. So that would indicate the numbers that trend--I 
shouldn't say ``trend'' because we only have a 4-year snapshot 
for me, 16, 17 and then one number larger than that down to 11. 
If one could draw a trend, that would indicate that it is going 
at least in a positive direction.
    Mr. Mead. Yes, sir.
    Mr. King. I would make that point.
    And then, as you transition, you have also written 
information here that shows a number, about 254,000 total, that 
were processed by ICE, and your testimony says 300,000.
    What is the right number?
    Mr. Mead. Hopefully, the 254 would have either been the 
last fiscal year or a year-to-date number. Our 2007 number in 
terms of passing through our custody is approximately 300,000.
    Mr. King. And these inmates are being processed through--it 
takes time to process them. If you could process them more 
quickly, would that have an effect on the number of inmate 
deaths that you have?
    Mr. Mead. Conceivably, the average length of stay in our 
custody would be a factor, certainly on illnesses that are, 
what, related to longer term care.
    Mr. King. Mr. Mead, I would just ask you to reflect upon--
you heard my opening statement with regard to the number of 
deaths in our U.S. military, nonrelated to hostilities, and 
those numbers being higher than the numbers of the inmates in 
ICE care; and the balance of the statistics that were part of 
that opening statement that I made, how do you explain that--
that, apparently, if your interest is to improve the 
statistical odds of your survival, joining the military in a 
time not of war seems to be statistically, or being a part of 
a--let me just say that compared to being an ICE inmate--I 
would like to hear you respond to that.
    Mr. Mead. I am not in a position to comment on the military 
issue, but the ICE health care program is an extremely robust 
program.
    We do a lot of screening. As I mentioned in my opening 
statement, last year DIHS completed over 500,000 medical visits 
for the detainees in our custody. Many of our detainees receive 
almost daily attention.
    So it is an aggressive program, and we do everything 
possible to maintain the best quality of life for the detainees 
in our custody.
    Mr. King. Thank you.
    Madam Chair, I yield back.
    Ms. Lofgren. I will be very brief because I know we have 
another panel that has been waiting all afternoon. I just want 
to make one comment, and I will have one question.
    Before I was in Congress, I served on the Board of 
Supervisors in Santa Clara County, the fourth largest county in 
California, and one of my jobs was to oversee the county jail, 
then one of the largest jails in America. And a major focus was 
the medical care that needed to be provided because once you 
have somebody in custody, it is all on you. They can't go to 
another doctor.
    You take up whether they are charged with murder or 
jaywalking, you have the same obligation for their care. And I 
would just note that when I was in charge of that, we didn't 
have to call Washington, D.C., to get permission for treatment 
of an inmate in the county jail as the--as is the case for ICE 
detainees.
    So to say the two populations are being treated the same, 
simply is incorrect and I think very misleading. I would also 
like to note some skepticism that I have about your testimony.
    On page 6 you note that the DRO reports all detainee deaths 
to the ICE Office of Professional Responsibility and the DHS 
Office of the Inspector General. However, we have a letter from 
the Inspector General of DHS to Senator Dayton, just last year, 
1 year ago, where he pointed out--and I won't mention the 
woman's name because I don't know whether there is a privacy 
issue--but Ms. X had died, but we were unaware of her death 
until the complaint was received from the complainant some 
number of months later. So I guess it makes me skeptical about 
the testimony that you have given to us.
    And finally, I have this question: For the deaths that are 
reported, does it include individuals who are released and then 
expire for the lack of treatment they received in custody or 
only those who die while they are actually in your facilities?
    Mr. Mead. Well, not necessarily in our facilities. They 
could still be in our custody and at a hospital, but those who 
die later are not included.
    Ms. Lofgren. And the stories that we have, it is not years 
later; it seems to be a direct cause of the neglect received in 
the facility.
    At this point--my time has not expired, but it is already 
3:30, and there are no other Members to ask, I would thank you 
for being here for your testimony. Note that the record is open 
for 5 days and additional questions may be forthcoming, and if 
they are, we would ask that you answer them promptly.
    Thank you very much. I thank all of you for your 
willingness to be here today and for your patience for all of 
the votes that we had on the floor.
    We will now call the next panel.
    Seated first on the panel, we would like to extend a warm 
welcome to Francisco Castaneda, a former ICE detainee. Mr. 
Castaneda immigrated to the United States from El Salvador with 
his family in 1982 at the age of 10 to escape that nation's 
civil war.
    His family moved to Los Angeles where he went the school 
and began working at the age of 17.
    Mr. Castaneda has a 14-year-old daughter, who is with us 
here today, and has celebrated his 12th anniversary with his 
girlfriend, Cynthia.
    He entered ICE's custody in March of 2006 and will tell us 
about it.
    Next, we are joined by Edwidge Danticat, the renowned 
American author and niece of the Reverend Joseph Danticat, a 
deceased detainee. She was born in Haiti and moved to the 
United States to join her family at the age of 12.
    She has written several critically acclaimed books 
including Breath, Eyes, Memory, an Oprah Book Club section; 
Krik!Krak!, a National Book Award finalist; and the Farming of 
Bones, an American Book Award winner. She earned her bachelor's 
degree from Barnard College and her MFA from Brown University.
    I would like to extend a welcome to June Everett, the 
sister of Sandra Kenley, a deceased ICE detainee. Ms. Everett 
and her sister grew up in Barbados. Ms. Kenley raised Ms. 
Everett and her two other siblings while their mother worked to 
provide for their family.
    Ms. Everett, a U.S. Citizen, currently resides outside of 
Washington in New Carrollton, Maryland, and has become an 
advocate for ICE detainee family members since her sister's 
death.
    Next, I am pleased to introduce Tom Jawetz, an immigration 
detention staff attorney with the American Civil Liberties 
Union.
    Prior to his work as an immigration detention staff 
attorney, Mr. Jawetz worked on the ACLU's National Prison 
fellowship and the Immigrant and Refugee Rights Project at the 
Washington Lawyers Committee for Civil Rights and Urban 
Affairs. He clerks for U.S. District Court Judge Kimba Wood of 
New York and served as an AmeriCorps member in South Carolina.
    Mr. Jawetz graduated with honors from both Dartmouth 
College and the Yale University School of Law.
    I am also pleased to welcome Dr. Allen Keller, an Associate 
Professor of Medicine at the New York University School of 
Medicine and Director of the Bellevue/NYU Program for Survivors 
of Torture.
    Dr. Keller also directs NYU's School of Medicine Center for 
Health and Human Rights, chairs the policy committee of the 
National Consortium of Torture Treatment Programs and served on 
the American College of Physicians Ethics and Human Rights 
Committee. He additionally worked as a source advocacy fellow 
with Human Rights First and led a study on asylum seekers at 
the request of the U.S. Commission on International Religious 
Freedom.
    He completed his medical education and residency at NYU and 
served as the hospital's Chief Resident in the early 1990's.
    And finally we would like to welcome Cheryl Little,
    the Cofounder and Executive Director of Florida Immigrant 
Advocacy Center, or FIAC. FIAC, based in Miami, provides free 
legal assistance to immigrants of all nationalities.
    Ms. Little began her career in immigration law with the 
Haitian Refugee Center after graduating with her bachelor's 
degree from Florida International University and her law degree 
with honors from the University of Miami's School of Law.
    Well, thank you all for your willingness to tell us your 
stories and to give us your information and share your 
expertise. Each of your written statements will be made part of 
the record in its entirety.
    We would ask that you summarize your testimony in about 5 
minutes, and there is a machine that is not--it is hidden but 
when 4 minutes have gone by, a yellow light will go on. That 
means you have got 1 minute more. When the red light goes on, 
it means your time is up; and we would ask, if at all possible, 
you summarize so we can hear the other witnesses. And then we 
will have questions.
    So we will start, if we could, with Mr. Castaneda for your 
5 minutes of testimony.

       TESTIMONY OF FRANCISCO CASTANEDA, FORMER DETAINEE

    Mr. Castaneda. Good afternoon. Thank you to the Chairwoman 
Lofgren for inviting me to----
    Ms. Lofgren. Could we move the mike?
    Mr. Castaneda. Thank you to the Chairwoman Lofgren for 
inviting me and to the Immigration Subcommittee for holding 
this hearing.
    My name is Francisco Castaneda. I was held in immigration 
detention over 2 months and was just released this past 
February, due to my medical condition, after many letters from 
the ACLU were sent on my behalf.
    First, I would like to tell you a little bit about myself.
    I am 35 years old. I came to the United States from El 
Salvador with my mother and siblings when I was 13 years old to 
escape from the civil war. My family moved to Los Angeles where 
I went to school and began working at the age of 17. My mother 
died of cancer when I was pretty young before she was able to 
get us legal immigrant status.
    After my mom died, I looked to my community for support and 
found myself wrapped up in drugs instead, which today I deeply 
regret. I worked doing construction up until I went to prison 
on a drug charge, where I spent just 4 months before I was 
transferred into ICE detention.
    When I entered ICE custody at the San Diego Correctional 
Facility in March 2006, I immediately told them I had a very 
painful lesion on my penis. After a day or two, Dr. Walker 
examined me and recognized that the lesion was a problem. He 
said he would request that I see a specialist right away. But 
instead of sending me directly to a specialist, I was forced to 
wait and wait and wait.
    All the while, my pain got worse. I started to bleed even 
more and it smelled really bad. I also had discharge coming out 
of it. Dr. Walker submitted a request to the Division of 
Immigration and Health Service. After more than a month, it was 
finally granted.
    When I saw an oncologist, he told me it might be cancer; I 
needed a biopsy. He offered to admit me to a hospital. He 
admitted me for the biopsy, but ICE refused to permit a biopsy 
and told the oncologist that they wanted to try a more cost-
effective treatment.
    I was then referred to a urologist, but I only got to see 
the urologist 2\1/2\ months later, after I filed a request and 
a grievance with ICE. The urologist said I needed an incision 
to remove the lesion and stop the pain and bleeding, and also 
said I needed biopsy to figure out if I had cancer. ICE and the 
Division of Immigration Health Services never did either of 
those things. They said that it was ``elective surgery.''
    My pain was getting worse day by day. When you are in 
detention, you can't help yourself. I tried to get medical help 
every day. Sometimes I would show the guards my underwear, the 
blood on it, to get them to take me to medical; but they would 
say they couldn't help me for nothing.
    Several more requests for biopsy were denied. They told me 
in writing that I couldn't get the surgery after--they told me 
I could get the surgery after I left the facility and was 
deported.
    In late November 2006, I was transferred from San Diego to 
San Pedro Service Processing Center. When I got there, I 
immediately filed sick call slips about my problem. After a few 
days I saw a doctor. I told him about my pain and showed them 
the blood in my boxer shorts and asked them to examine my 
penis. They didn't even look at it. One of them said I couldn't 
be helped because I needed elective surgery.
    In the middle of December, I noticed a lump in my groin. It 
hurt a lot. It was a little bit smaller than a fist, so I filed 
a sick call slip about it. I never got any treatment for it. I 
later found out it was a tumor; the cancer had already spread.
    In beginning of January, they put me in handcuffs and leg 
shackles and drove me to the emergency room. When I got there, 
the officer tried to find someone to see me. But he was told I 
would have to wait in line like everybody else. After about an 
hour over the following time, all chained up, they took me back 
to San Pedro, and I never got to see no one.
    Back when I was in San Diego, another detainee give me the 
phone number from the ACLU and said, They might be able to help 
you. I called them and spoke with them and told them about my 
story and about how much pain I was in. When I got to San 
Pedro, he sent letters and called the people at the facility to 
try to help me get medical care.
    Finally, around the end of January, Immigration agreed to 
let me get a biopsy. They made an appointment with the doctor. 
But just before the surgery, they released me from custody. A 
doctor actually walked me out of San Pedro and told me I was 
released because of my serious medical condition. The first 
thing I did was call a doctor to see whether I could still get 
my biopsy; the secretary told me I had canceled it.
    I then went back to emergency room at Harbor-UCLA on my own 
and I waited to see the doctor and finally got my biopsy. A few 
days later, the doctor told me I had cancer, I would have to 
have a surgery right away to remove my penis. They said if I 
didn't have the surgery, I would be dead in less than 1 year.
    On February 14th, Valentine's Day, after I was released 
from custody, I had the surgery to remove my penis. Since then 
I have been through five aggressive week-long rounds of 
chemotherapy. The doctor said my cancer spreads very fast--it 
had already spread to my lymph nodes.
    I am sure you can imagine how this feels. I am a 35-year 
old man with my life on the line. I have a young daughter, 
Vanessa, who is only 14. She is here with me today because she 
wanted to support me and because I want her to see her father 
do something for the really good so that she would have that 
memory of me. The thought that her pain and mine could have 
been avoided almost makes this too much to bear.
    I have to be here today because I am not the only one who 
didn't get the medical care I needed. It was routine for the 
detainees to have to wait weeks or months to get basic care. 
Who knows how many tragedies can be avoided if ICE only 
remembers that regardless of why a person is in detention and 
regardless of where they will end up, they are still humans and 
they deserve basic care, humane medical care.
    In many ways, it is too late for me; short of a miracle, 
the most I can hope for are for some good days with Vanessa and 
some justice. My doctors are working on my good days; and 
thankfully, my attorneys at Public Justice here in Washington, 
Mr. Conal Doyle in California, and the ACLU are working on the 
justice not just for me but for many others who are suffering 
and who will never get the help unless ICE is forced to make 
major changes in the medical care provided to immigrant 
detainees.
    I am here to ask each of you, the Members of the Congress, 
to bring an end to the unnecessary suffering that I and too 
many others have been forced to endure in ICE detention.
    Thank you for your time.
    Ms. Lofgren. Thank you. Thank you, Mr. Castaneda for your 
willingness to be here and to explain your tragic experience.
    [The prepared statement of Mr. Castaneda follows:]

               Prepared Statement of Francisco Castaneda

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Ms. Danticat.

  TESTIMONY OF EDWIDGE DANTICAT, AUTHOR AND NIECE OF REVEREND 
               JOSEPH DANTICAT, DECEASED DETAINEE

    Ms. Danticat. Madam Chair, Members of the Subcommittee. I 
thank you very much for the opportunity to appear before you.
    I come today not in my own name, but in the name and in the 
stead of a loved one who died while in the custody of the 
Department of Homeland Security and ICE officials in the Krome 
Detention Center in Miami. His name was Joseph Danticat and he 
was 81 years old.
    He had been living in the same neighborhood in Haiti for 
more than 50 years, but on October 24th, 2004, United Nations 
troops and Haitian police forces launched a military operation 
there. Their goal was to oust armed neighborhood gangs. 
However, during the clash that followed, they used his roof to 
fire and kill more than a dozen of his neighbors.
    After these forces left the neighborhood, because of the 
shots had been fired from his roof, the gangs threatened his 
life, and so he fled and eventually traveled to the United 
States where he had been a very frequent visitor for more than 
30 years.
    He had a passport and a valid visa when he arrived at Miami 
International Airport. However, because he requested asylum, he 
was arrested and taken to the Krome Detention Center where the 
medications he was taking for high blood pressure and an 
inflamed prostate were taken away from him.
    A few days later, on the morning of his credible fear 
hearing, he became ill and began to vomit. Vomit was shooting 
out of his mouth, his nose as well as the tracheotomy hole he 
had in his neck that he had for cancer surgery. Still, when a 
medic arrived at the scene, the medic accused him of faking his 
illness. I am not just saying this; it was in an OIG report 
that we got through FOIA.
    Later that morning, his condition was worse and with 
shackles on his feet, he was transported to Miami's Jackson 
Memorial Hospital. He arrived in the emergency room there at 1 
p.m. And was transferred to the prison Ward D where he was 
first seen by a physician 24 hours after he arrived. Later that 
evening, he was sweating profusely and complained of weakness, 
and soon after, he was found dead by an immigration guard.
    There are certainly many heartbreaking elements to my 
uncle's death. However, there are certainly very crucial 
moments where the medical system in detention failed him.
    First of all, the fact that his medication, which he had 
been taking for many years in a careful balance that took into 
consideration his high blood pressure and his status as a 
cancer survivor, that was taken away and that was one.
    Secondly, the fact that he was not taken seriously when he 
became ill at a public hearing; and having been accused of 
faking his illness was certainly another.
    Furthermore, the fact that he was not seen by a physician 
when he was brought to an emergency room was surely 
detrimental. And finally, the fact that he was not permitted by 
criminal officials and Homeland Security officials to see his 
loved ones during his final hours must have left him feeling 
less than human at best.
    After my uncle died--and by the way, his death was not 
reported until it was in the press contrary to these things--
the Department of Homeland Security simply gave my family a 
corpse, a cadaver, and a cause of death, which they said was 
acute and chronic pancreatitis, which my uncle had never shown 
any symptoms of before he became ill at Krome and for which he 
was never screened, tested, diagnosed or treated while he was 
either at Krome or Jackson Memorial.
    We were given no further explanations or clarification 
concerning his last days, and in order to receive his medical 
records, we had to file those FOIA requests that I mentioned.
    Recently, in an article entitled New Scrutiny As Immigrants 
Die in Custody, Nina Bernstein, a New York Times reporter, 
quoted Jamie Zuieback, a spokesman for the Department of 
Homeland Security as saying, quote, that ``Anybody who violates 
our immigration laws is going to get the same treatment by ICE 
regardless of their medical condition.''
    It is worth noting that my uncle and many others who have 
died and are dying in the custody of the Department of Homeland 
Security and ICE officials did not violate any immigration 
laws. All my uncle did was request asylum, which I believe is 
an internationally acknowledged human right.
    Furthermore, if it is the intention of the Department of 
Homeland Security and ICE official to criminalize the right of 
a person to seek asylum and then see that lack of medical 
attention given to that person as part of the punishment, then 
more and more people will continue to die.
    Today, our loved ones are being referred to in this hearing 
as ``detainees.'' But when they enter the system they are in 
sick, we quickly learn that they are prisoners; as family 
members, we quickly learn that. But even prisoners deserve to 
be treated fairly, decently and humanely.
    Death in custody will continue to increase if we neglect to 
care for people who have already suffered great traumas before 
getting here and are dying, hurt and uncared for, in 
immigration jails.
    Many people like my uncle, who in spite of the designation 
that he was given as Alien No. 2704199, was a father, a 
grandfather, a brother, an uncle, a friend who is missed and 
treasured every day by those of us who loved him.
    Thank you.
    Ms. Lofgren. Thank you very much, Ms. Danticat.
    [The prepared statement of Ms. Danticat follows:]

                 Prepared Statement of Edwidge Danticat

Madame Chairwoman and Members of the Committee and Subcommittee:
    I thank you very for the opportunity to submit for the record this 
testimony concerning immigration detainees and medical care.
    I write today not in my own name, but in the name--and stead--of a 
loved one who died while in the custody of Department of Homeland 
Security and Immigration and Customs Enforcement officials, and the 
Krome Detention Center in Miami. His name was Joseph Nosius Dantica and 
he was 81 years old. He was the patriarch, the head, of our family. He 
was a father of two and grandfather of fifteen, an uncle to nearly two 
dozen of us, a brother, a friend, and even, after having survived 
throat cancer, which took away his voice, a minister to a small flock 
in Port-au-Prince, Haiti. He had been living in the same impoverished 
neighborhood in Haiti for more than fifty years when on October 24, 
2004, United Nations troops and Haitian police forces launched a 
military operation there. Their goal was to oust armed neighborhood 
gangs. However, during the clash that followed, they used the roof of 
his church to fire at and kill more than a dozen of his neighbors. 
After these forces left the neighborhood, because the shots had been 
fired from his roof, gang members came to my uncle's home and 
threatened to kill him. He was able to flee and eventually travel to 
the United States, where he has been a frequent visitor for more than 
30 years. He had with him a passport and a valid multiple-entry visa, 
which would have expired in 2008. However because he requested what he 
termed ``temporary'' asylum, he was immediately arrested and taken to 
the Krome Detention Center in Miami, where the medications he was 
taking for his high blood pressure and inflamed prostate were taken 
away from him. He made this known as much as he could, to his son, to 
his lawyer, and to me on the phone, and to the medical staff at Krome 
where he was held in the short stay medical unit. However his pleas 
were ignored by those who had taken his medication away.
    On the morning of his credible fear hearing, my uncle became ill as 
a result of this. To those who saw him, including his lawyer, he 
appeared to be having a seizure and he began to vomit. Vomit shot out 
of his mouth, his nose, as well as the tracheotomy hole he had in his 
neck as a result of the throat cancer operation. The vomit was spread 
all over his face, from his forehead to his chin, down to the front of 
his dark blue Krome issued overall.
    According to a report prepared by the Office of the Inspector 
General of the Department of Homeland Security, fifteen minutes passed 
before help arrived. When a medic and nurse arrived at the scene, the 
medic accused my uncle of faking his illness. To prove his point, the 
medic grabbed my uncle's head and moved it up and down. It was rigid 
rather than limp, he said. Besides, my uncle would open his eyes now 
and then and seemed to be looking at him.
    ``You can't fake vomit,'' my uncle's lawyer, John Pratt shot back. 
``This man is very sick and his medication shouldn't have been taken 
away from him.''
    The medications were indeed taken away, replied the medic, in 
accordance with the facility's regulations, and substituted with 
others.
    Later that morning, my uncle's condition worsened and with manacles 
on his ankles, he was transported to Miami's Jackson Memorial Hospital. 
My uncle's medical records from Krome and from Jackson Memorial 
Hospital indicate that he arrived in the emergency room at Jackson 
Memorial Hospital around 1:00 PM with an intravenous drip in progress 
from Krome. He was evaluated by a nurse practitioner at 1:10 PM.
    At 4:00 PM, during a more thorough evaluation by the nurse 
practitioner, he complained of acute abdominal pain, nausea and loss of 
appetite. At 5 PM, he was transferred to the hospital's prison area, 
Ward D. The records indicate that he was seen for the first time by a 
physician at 1:00 PM the next day, exactly twenty-four hours after he'd 
been brought to the emergency room. At 7:00 PM, after more than twenty 
hours of no food and sugarless IV fluids, my uncle was sweating 
profusely and complained of weakness. He was found to be hypoglycemic, 
with a lower than normal sugar level of 42 mg/dl. At 7:55 PM, his heart 
rate rose to 110 beats per minute. An electrocardiogram (EKG) was 
performed at 8:16 PM. The next note on the chart shows that he was 
found pulse-less and unresponsive by an immigration guard at 8:30 PM. 
He was pronounced dead at 8:46 PM.
    There are certainly many heartbreaking elements to my uncle's 
death. However, there are certainly moments where the medical system in 
detention failed him. First of all, the fact that his medication, which 
he had been taking for many years in a careful balance that took into 
consideration his high blood pressure and his status as a cancer 
survivor, had been taken away was one. Secondly the fact that he had 
not been taken seriously when he fell ill during the credible fear 
hearing, had been accused of faking his illness, was another. The lack 
of instant and serious response to his becoming ill at the credible 
fear hearing implied that his symptoms might also not have been taken 
seriously elsewhere away from the view of others. Furthermore, the fact 
that he was not seen by a physician soon after he was brought to the 
emergency room by Krome officials was also part of his continually sub 
par medical attention. Also the fact that he was not permitted by 
Homeland Security and Krome officials to see loved ones, who also 
wanted to see him, during his final hours must have left him feeling 
less than human, at best.
    After my uncle died, the Department of Homeland Security simply 
gave my family a corpse and a cause of death-acute and chronic 
pancreatitis--which he'd never shown any symptoms of before he became 
ill at Krome and for which he was never screened, tested, diagnosed, or 
treated while he was at the Krome medical unit or at Jackson Memorial 
Hospital. We were given no further explanations or clarification 
concerning his last days. In order to receive his medical records, with 
the help of the Florida Immigrant Advocacy Center, we had to file 
Freedom of Information Act requests as well as a lawsuit. From the 
perspective of a family member, this is a nightmare. Not only did we 
tragically lose our loved one, but we had to fight a huge bureaucracy 
to find out what happened to them.
    Recently in an article entitled ``New Scrutiny as Immigrants Die in 
Custody,'' Nina Bernstein, a New York Times reporter, quoted Jamie 
Zuieback, a spokeswoman for The Department of Homeland Security, as 
saying that ``Anybody who violates our national immigration law is 
going to get the same treatment by I.C.E. regardless of their medical 
condition.'' First of all, my uncle and many of the others who have 
died, and are dying in the custody of the Department of Homeland 
Security and I.C.E officials did not violate any immigration laws. All 
many of them have done, was request asylum, which is an internationally 
acknowledged human right. Furthermore, if this, as stated by Ms. 
Zuieback to the New York Times, is the general attitude of and implied 
policy of Department of Homeland Security and I.C.E officials--to 
criminalize the right of a person to seek asylum and then see the lack 
of medical attention and care given to them as part of the punishment--
then more people will continue to die in their care.
    During our efforts to see my uncle in his last days, we were 
consistently told that Department of Homeland Security Officials, I.C.E 
and Krome officials had the right to make decisions in his medical 
care. In that type of situation, this can mean that they literarily 
have our loved ones' lives in their hands. Therefore, if our loved ones 
are sick, they should be treated. If they need emergency care, they 
should get it. They are called detainees, but really they are 
prisoners. As family members we quickly learn that. But even prisoners 
deserve to be treated fairly and decently and humanely. This is what we 
consistently tell jailers of other countries. How about we practice 
some of it here ourselves?
    Immigration detention is one of the fastest growing forms of 
incarceration in the United States. Deaths in custody will only 
increase if we neglect to care for people who are withering away and 
dying unheard and neglected. People like my uncle who was not just 
Alien #27041999, but a father, a grandfather, a brother, and uncle, a 
friend, a clergyman, who was extraordinarily loved and greatly 
treasured and is missed every single day by those who loved him very 
very much.

    Ms. Lofgren. Ms. Everett, are you able to proceed now?

 TESTIMONY OF JUNE EVERETT, SISTER OF SANDRA KENLEY, DECEASED 
                            DETAINEE

    Ms. Everett. I have to.
    I would like to thank Congresswoman Lofgren and all of the 
Members of the Subcommittee for inviting me to speak today.
    My name is June Everett. My sister is Sandra Marina Kenley. 
To find out after reading the papers recently that more than 62 
immigrants have died and continue to die while in U.S. custody 
since about the time of my sister's death is shocking and 
disheartening.
    My sister was one of those immigrants who died in jail on 
the ICE supervision. I cannot tell you the stories of all of 
these other deceased immigrants, but I can tell you my sister's 
story.
    Sandy came to America when she was 20 years old and lived 
here for nearly 33 years.
    My sister was not illegal but a legal permanent resident. 
She was not a terrorist. She was a human being, one that made 
mistakes like all of us. She was a--she was human enough to 
turn her life around and to pursue her dreams. She became a 
nurse, had just bought a new car and took custody over her 
granddaughter. My sister worked in this country for at least 25 
years before becoming disabled.
    In 2005, Sandie visited Barbados to show off her 
granddaughter, over whom she had custody. When she returned to 
this country, she was stopped by an ICE officer and asked to 
report to the immigration office for questions. When she did, 
Sandie was asked to return without her granddaughter. When she 
returned a few weeks later, she again brought her 
granddaughter. She was the child's sole custodian.
    The officer sent her away and told her to return without 
her granddaughter. My sister again reported to the authorities 
for questioning, as requested. Three times she went to Dulles 
airport to answer immigration questions. This time she did not 
return.
    Her son, who is here today, and I were with her the day she 
was taken into custody. Sandie was detained for an old 
misdemeanor drug charge for which she hadn't even served any 
jail time. She also had already fulfilled the court's 
requirement for that charge. She completed her probation early 
and never went back on drugs.
    At the airport, we told the ICE officer of my sister's 
medical condition. She was disabled. She had a bleeding fibroid 
that needed surgery. She had a date set for that surgery. She 
had high blood pressure and high cholesterol and took 
medication for those conditions. Despite all of this, ICE 
determined that she needed to be detained.
    Sandie wasn't a threat to anyone, and she was not a flight 
risk, proving that going back three times. She had her whole 
family in this country and had just shown up for questions 
three times.
    Sandie was taken to the Pamunkey Regional Jail in Virginia. 
I know she complained constantly about not getting her 
medicine. When the prison officer finally gave her her pills 
after many weeks, they were the wrong ones, not the ones we had 
given the ICE official that day at Dulles airport.
    Those pills made her very sick. She was hemorrhaging 
nonstop. Blood pouring down her legs and spilling on the floor 
of her cell. My sister was scared and suffering unnecessarily. 
My sister did everything she could to get help, but no one 
would do anything. Then, on December 18, 2005, I received a 
call saying my sister had died in jail.
    I have so many questions about Sandie's death, and ICE has 
made it so very difficult for me to learn what happened. There 
needs to be some transparency, some oversight, and ultimately 
some accountability.
    Sandie died trying to do the right thing. She died because 
the American system failed her--a system we believed in, a 
system that needs fixing before more lives are lost 
unnecessarily. What am I supposed to tell my grandniece, 
Nakita, about her grandmother's death? What am I supposed to 
tell Nakita about American principles?
    I am here because I believe that what happened to my sister 
ought not happen to anyone else. I urge you to conduct the 
necessary oversight over my sister's tragic and preventible 
death and fix the problem of inadequate medical care in 
immigration detention centers that has resulted in too many 
avoidable deaths.
    Sandie's death was one that was avoidable from the onset.
    I thank you for your time.
    Ms. Lofgren. Thank you, Ms. Everett.
    [The prepared statement of Ms. Everett follows:]

                   Prepared Statement of June Everett

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Mr. Jawetz.

TESTIMONY OF TOM JAWETZ, IMMIGRATION DETENTION STAFF ATTORNEY, 
                  ACLU NATIONAL PRISON PROJECT

    Mr. Jawetz. My name is Tom Jawetz. I am the immigration 
detention staff attorney for the National Prison Project of the 
American Civil Liberties Union.
    The ACLU is currently involved in a class action lawsuit 
regarding inadequate medical care for immigration detainees at 
the San Diego Correctional Facility. I would like to thank 
Chairwoman Lofgren and Members of the Subcommittee for inviting 
me here today to speak about a serious and growing problem in 
immigration detention--horribly inadequate medical care that 
leads to unnecessary suffering and death.
    This issue lies at the center of one of our country's most 
basic principles: that everyone is entitled to fair and humane 
treatment.
    Today, the ACLU requests that this Committee do the 
following four things:
    One, eliminate the procedural hurdles that prevent on-site, 
treating clinicians from providing necessary medical care to 
detained immigrants;
    Two, fix the serious substantive deficiencies in the DIHS 
Covered Services Package to ensure that detainees receive 
adequate and appropriate medical care;
    Three, require immigration authorities to publicly report 
every death; and
    Four, codify improved and binding detention standards, 
including legislation prohibiting retaliatory transfers of 
detainees who complain about poor medical care and conditions 
of confinement.
    ICE detains nearly 300,000 people each year; approximately 
one-quarter are identified as suffering from some chronic 
health condition. Detainees are scattered across the country in 
hundreds of county jails and in a handful of facilities run by 
ICE or private prison companies. Some are detained for weeks, 
many are detained for months or years.
    Recent reports from the DHS Office of Inspector General and 
the Government Accountability Office confirm that there are 
nationwide problems with medical care and detention. The 
policies that were testified to today are not being followed, 
and these reports demonstrate that.
    The system for providing necessary medical care suffers 
from several fatal flaws:
    First, detainees may not receive specialty services such as 
a biopsy or an MRI unless on-site medical personnel obtain 
authorization from off-site managed care coordinators with the 
Division of Immigration Health Services in Washington, D.C. 
This results in unreasonable delays in medical care and 
unjustifiable refusals to provide authorization.
    My statement is based not only on my experience and the 
experience of the ACLU with our clients, but also on the 
criticisms of jail officials whose hands are often tied by the 
DIHS bureaucracy. In York County, Pennsylvania, where detainees 
have been housed for years, the deputy warden wrote in a letter 
to a local ICE officer that DIHS had, quote, ``set up an 
elaborate system that is primarily interested in delaying and 
or denying medical care to detainees. There is nothing easy 
about working with DIHS. If something can be delayed, it is 
delayed. If it can be denied, it is denied. If something can be 
made difficult, it is made difficult.''
    Second, the treatment authorization decisions made by those 
managed care coordinators, who are the nurses, not doctors--and 
there are three of them in D.C. for the entire country--are 
made in accordance with deeply flawed policies. Those policies 
emphasize that detainees primarily receive emergency care only 
literally when life or limb is at stake. This policy is 
blatantly inconsistent with established principles of 
constitutional law and basic notions of decency.
    The terrible consequence of poor medical care for ICE 
detainees is that it can result in death. Recently, ICE 
revealed that 62 people have died in their custody since 2004. 
Since that announcement, at least three other detainees have 
died.
    In their written testimony, they say 62 and in--64, rather; 
64, I think it is; in the oral testimony today it was 66. I 
don't really know what the right answer is, what the right 
number is.
    Since that announcement, at least three others have died. 
Some of these deaths were undoubtedly the result of poor health 
care, yet ICE appears to have no legal obligation to publicly 
report deaths that take place in their custody and concedes 
that not every in-custody death is investigated.
    Congress must rectify this problem to ensure some amount of 
transparency and accountability.
    Two and a half months ago, Victoria Arellano passed away 
after spending 8 weeks in detention. Ms. Arellano was a 
transgender, HIV-positive detainee who, by all appearances, had 
her disease well under control before she entered ICE custody.
    In detention, she was taken off of the HIV medication she 
required to fend off opportunistic infections and her health 
quickly began to deteriorate. She developed a high fever, 
complained of severe pain, nausea, stomach cramps, and began 
vomiting blood and suffering from diarrhea. Nevertheless, it 
was fellow detainees and not qualified medical personnel who 
took care of her in the weeks preceding her death.
    After Ms. Arellano's death became public, detainees quoted 
in the press about her lack of care were transferred to 
facilities across the country, as far as away as Texas. Such 
transfers have taken place following other deaths. They appear 
retaliatory, they hinder investigations, and they intimidate 
other detainees into silence.
    The ACLU has called on the Department of Homeland Security 
Office of Inspector General to investigate Ms. Arellano's death 
and the suspicious transfer of these detainees.
    Congress ought to pass legislation requiring the detainees 
receive adequate treatment. This grossly deficient care is 
inexcusable and immoral, but is often common and often 
unchecked. While ICE has issued standards for the treatment of 
detainees, they are not enforceable regulations. Comprehensive 
immigration reform may have stalled in the Senate, but Congress 
cannot remain idle while innocent people detained by the 
Federal Government continue to suffer unnecessary pain and 
death.
    I applaud the efforts of the Chairwoman and Members of the 
Subcommittee to perform the oversight that the executives is 
either unable or unwilling to perform, and I urge this 
Committee to reform a broken health care delivery system that 
allows people to die.
    Congress should fix the procedural and substantive barriers 
that now prevent detainees from receiving adequate care, and 
require immigration authorities to publicly report every 
detainee death. Congress should also pass legislation to codify 
and improve binding immigration detention standards.
    On behalf of the ACLU, I would like to thank the 
Subcommittee for taking the time to explore this important 
issue, and I look forward to the opportunity to answer your 
questions.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Jawetz follows:]

                    Prepared Statement of Tom Jawetz

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Doctor.

  TESTIMONY OF ALLEN S. KELLER, M.D., ASSOCIATE PROFESSOR OF 
        MEDICINE, NEW YORK UNIVERSITY SCHOOL OF MEDICINE

    Dr. Keller. Thank you for the opportunity to testify here 
today.
    I am here on behalf of the Bellevue/NYU Program for 
Survivors of Torture and Physicians for Human Rights. I am here 
as a physician who has cared for many immigrants and refugees, 
including many who have been in immigration detention. I am 
also here as a scientist who conducted a study looking at the 
health of asylum seekers in immigration detention.
    In this study, done in June 2003, more than 4 years ago--
that is when it was released--we documented high levels of 
psychological distress that worsened the longer that 
individuals were in detention. We also documented inadequate 
access to mental health services as well as inadequate medical 
and dental services.
    Unfortunately, recent reports demonstrate that the problems 
we identified more than 4 years ago remain uncorrected; and I 
think it is crucial to remember there is a lot more to 
suffering and morbidity than death. Clearly, that is an 
important thing to look at, but there is a lot more to the 
picture.
    It is important to remember that like other immigration 
detainees, asylum seekers are civil detainees, not criminal 
detainees; and repeatedly we heard from the individuals we 
interviewed that never did they think when they came to this 
country, seeking safety and to build a better life, that they 
would be treated like criminals, placed in facilities such as 
the Elizabeth Detention Center, a windowless converted 
warehouse. And these harsh prison conditions were confirmed in 
a study we conducted with the U.S. Commission on International 
Religious Freedom for which I serve as an expert.
    Access to mental health services was woefully lacking. 
Furthermore, there were clear disincentives for individuals to 
report depressive symptoms such as suicidal thoughts because 
detainees believed, and rightfully so, that if they did, they 
would be held in solitary confinement if they informed their 
jailers of these thoughts; and this issue remains a concern 
today.
    In addition to inadequate mental health services, more than 
half of the individuals we interviewed reported having serious 
health problems for which they had significant difficulty 
accessing medical care.
    Many detainees complained of difficulty obtaining 
specialized care, including for chronic conditions. This raises 
important questions about what care is appropriate and what can 
reasonably be delayed.
    The fundamental problem that we saw appears to persist 
today, and the health care provided in these facilities that we 
found then, and now, seems at best a short-term, stopgap ``jail 
mentality''; that is, medical care seems based on the 
assumption that the patients will be detained for only a few 
days or weeks while, in fact, many of the individuals we 
interviewed are detained for much longer. In fact, it would 
seem that this is going to worsen, given that the trend seems 
to be to detain more individuals rather than fewer.
    In the individuals that we interviewed, for example, one 
detainee who told us that he was shot in the groin while 
attending a peaceful demonstration, while in detention his 
groin pain worsened, he was told that he would have to wait 
until he was out of detention to get that bullet removed. He 
remained in detention for 2\1/2\ years.
    Numerous individuals we talked to describe pain and 
suffering from dental problems that went unaddressed for 
months, if not years.
    One recent case that I reviewed highlights a number of the 
problems regarding poor health care--including both medical and 
psychiatric--involves a woman I will refer to as LC who was 
from an African country where she suffered repeated trauma, she 
suffered female genital mutilation, she was raped, she 
witnessed the murder of several family members. She fled to 
this country seeking safety. She was imprisoned and recently 
granted asylum, but she was imprisoned for approximately 6 
months. Not surprisingly, when she arrived in this country she 
was exhausted, and when she learned she was going to be 
detained she panicked and she subsequently collapsed. At the 
detention center, she was misdiagnosed as being psychotic. And 
it should be clear that at that evaluation and as best I could 
tell from the medical records, these evaluations were done 
without the use of interpreters, although this woman spoke 
barely any English.
    She was put on a medication Risperdal, an antipsychotic. 
She had profound significant side effects including lethargy, 
confusion, and also lactation--production of breast milk. And 
despite these symptoms, her medications were increased. 
Finally, she refused to take them and her symptoms improved. 
Later on when she had severe abdominal pain, she went weeks 
without proper evaluation, and it was only when her lawyers 
filed a habeas corpus case that she received medical care. And 
even then, she wasn't informed of what care she received.
    So clearly the problems with health care and immigration 
which have received recent attention are not new. Many of the 
problems described, including difficulties and delays, were 
ones we identified 4 years ago. Congress must do its job of 
overseeing immigration detention and providing this critical 
oversight.
    It is also essential that there be humane alternatives to 
detention whenever possible. This, in addition to being morally 
the right thing to do, is cost effective. Health problems for 
immigrant detainees need to be adequately addressed from a 
health perspective, including the pain and suffering and 
potential morbidity of the individual, as well as from a 
medical ethics perspective. It does not and should not matter 
whether a condition is preexisting or began during immigration 
detention. The individual is in Government custody, and with 
that comes the responsibility to provide appropriate and needed 
health services. Thank you.
    Ms. Lofgren. Thank you very much, Dr. Keller.
    [The prepared statement of Dr. Keller follows:]

                 Prepared Statement of Allen S. Keller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. And, finally, Ms. Little.

    TESTIMONY OF CHERYL LITTLE, EXECUTIVE DIRECTOR, FLORIDA 
                   IMMIGRANT ADVOCACY CENTER

    Ms. Little. Thank you so much. Good afternoon, and thank 
you for the opportunity to testify about an extremely important 
issue that, as we have just heard, profoundly affects the lives 
of so many people.
    As you mentioned, Congresswoman Lofgren, the Florida 
Immigrant Advocacy Center provides free legal services to 
immigrants of all nationalities, including many in Immigration 
and Customs Enforcement detention, ICE detention in Florida and 
elsewhere.
    Lack of access to adequate medical care is one of their 
chief complaints. Recent reports of more than 60 deaths in 
immigration detention since 2004 have shed new light on a 
system in crisis. FIAC is working to try to prevent further 
deaths, although at times this seems a difficult battle. 
Detainees report undue delays in obtaining proper medical care 
or outright denial of such care. Even emergency treatment is 
delayed or ignored.
    Recently, FIAC took the case of Yong Sun Harvill, a 51-
year-old South Korean woman who has a history of cancerous 
tumor, chronic lymphedema, hepatitis C, liver disease, and 
mental health issues. Yong is currently detained at the Pinal 
County Jail in Florence, Arizona. There is no on-site physician 
there. In late September 2007, a board-certified hematologist, 
oncologist and internist, Dr. Gotardo Rodrigues, reviewed 
Yong's medical records and, in a letter that has been forwarded 
to ICE, he concluded, and I am now quoting from the letter, 
``The consequences of continued, incomplete, and superficial 
care of Mrs. Harvill may include chronic infections, 
disability, recurrence and progression of tumors, deteriorating 
physical and mental health, and other complications that could 
even lead to her death.''
    This letter followed a similar letter written by Dr. 
Rodrigues on July 10, 2007 that was submitted to ICE.
    Yong has kept a journal since her transfer to a jail from 
South Florida to Arizona. On August 29, 2007 she wrote, ``I'm 
afraid, because I have seen in the news how many people have 
died because they don't get medical care. I don't want to be 
the next one. They deny special tests that I need. I wish my 
judge can see how frightened I am. In the meantime, I can only 
pray to God to help me.''
    Another of FIAC's clients had been diagnosed with cancer 
before he was detained at the Krome Detention Center in July 
2006. Although a physician recommended that he urgently be 
referred for prostate surgery in October 2006, it was not until 
late December of that year, and after FIAC was preparing to 
sue, that he had surgery.
    Sometimes it practically takes an act of Congress for a 
detainee to receive medical attention. On March 8, 2002, one of 
FIAC's clients who was detained at the Turner Guilford Knight 
Correctional Center in Miami was spitting up blood in the 
presence of an officer. Despite attempts by both the officer 
and FIAC staff to get the detainee appropriate medical care, 
this was not done until Congressman John Conyers visited the 
jail and insisted she be seen by a doctor. That same day, she 
was taken to the hospital, 1 month and 2 days after she began 
spitting blood.
    Women often do not receive regular gynecological and 
obstetric care. One woman who was detained at the Broward 
Transitional Center in Pompano Beach first brought her symptoms 
to the attention of the medical staff on December 18, 2003. 
Although she had the classic symptoms of an ectopic pregnancy, 
a painful and potentially fatal condition, her concerns were 
ignored. On several occasions she was simply given Tylenol and 
told her pain was normal. When she began to bleed profusely, 
the medical staff still did not take her complaint seriously. 
On January 4, 2004, when she was finally seen by a doctor, she 
was immediately taken to the hospital for surgery.
    Even children have been deprived of adequate medical care 
in ICE custody. On April 10, 2003, FIAC staff observed Lormise 
Guilaume carrying her 2-year-old son, Jordan, who was visibly 
ill. FIAC requested immediate assistance, and officers called 
911. Jordan was rushed to the emergency room of a local 
hospital. His health had been deteriorating for some time and 
medical attention, repeatedly requested, was inexcusably 
delayed. A week before Jordan was rushed to the hospital, 
Lormise told FIAC, and I am quoting, ``My son has been sick for 
weeks. The problem was that I don't speak English and the 
doctor didn't speak Creole. I never imagined the United States 
would treat us like this.''
    Edwidge Danticat testified earlier about the death of her 
uncle, Reverend Danticat, while in ICE custody. Danticat's 
lawyers and family have serious questions about the adequacy of 
medical care provided him while in ICE custody, including at 
Jackson Memorial Hospital. FIAC also believes the investigation 
requested by Congressman Kendrick Meek and conducted by the 
Office of Inspector General into Reverend Danticat's death was 
a whitewash, and we wrote a detailed letter of complaint 
requesting the OIG to reopen their investigation. They declined 
to do so.
    It can be extremely difficult for detainees to access their 
own medical records, and can even take months for FIAC or other 
lawyers to access records on their clients' behalf. The process 
for requesting records is different at each facility where 
immigrants are detained, but is consistently riddled with 
bureaucratic red tape. With transfers of detainees from one 
facility to another becoming more and more routine, it can take 
months to gather a detainee's medical records. When there is a 
death, such as in Reverend Danticat's case, it is even more 
difficult to obtain medical records. FIAC had to sue in Federal 
court to get his records. The medical records we did obtain 
contained 31 redacted pages on the basis of privacy, despite 
the fact that the family had requested them.
    There is a serious lack of oversight regarding the adequacy 
of medical care provided ICE detainees. ICE standards adopted 
in 2000 to ensure the safe and secure treatment of detainees in 
immigration custody are not binding, and routinely ignored. 
These standards must have teeth. And outside independent 
scrutiny of detainees' medical care is necessary to ensure that 
DHS carries out its moral and legal responsibility to provide 
for the health and safety of detainees entrusted to its care. 
Given the dramatic increase in the use of ICE detention, the 
need for proper scrutiny of medical care afforded detainees is 
more critical than ever. Thank you.
    Ms. Lofgren. Thank you, Ms. Little.
    [The prepared statement of Ms. Little follows:]

                  Prepared Statement of Cheryl Little

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you to all of the witnesses for your 
compelling testimony. I will just ask a handful of questions, 
if I could.
    Mr. Castaneda, an incredible story, and I do appreciate 
that you are here to change things for others and I honor you 
for that. As I was listening to your story of a situation that 
got worse and worse and worse, I was trying to put--how many 
months were you in custody? When you arrived, you had a problem 
and it got worse and worse. Over what period of time were you 
in custody?
    Mr. Castaneda. Over 10 months.
    Ms. Lofgren. It was 10 months. In 10 months' time, it 
wasn't until you were so sick that they essentially threw you 
out.
    Mr. Castaneda. Until they saw I was bleeding and 
discharging and couldn't stop bleeding, and that is when they 
released me.
    Ms. Lofgren. Let me ask you, Ms. Danticat, a question. 
There are a lot of myths about immigration, but as you told 
your story of your uncle, he had a valid visitor's visa to come 
into the United States, and he had been here before. I mean, 
why would an 81-year-old Baptist minister who had a valid visa 
even be stopped? And how was he treated when he was stopped 
when he came into the United States just before the detention? 
Do we know about that?
    Ms. Danticat. Well, I think the people who detained him 
would have to answer the why. But as to how he was treated, 
when he made known his request for asylum he was taken into 
custody, he was interviewed, and then he was brought to the 
Krome Detention Center.
    Ms. Lofgren. Ms. Everett, when your sister was at the 
airport, she already had the fibroid problem and she had 
scheduled surgery, in fact. Did she tell the ICE agents that 
she had surgery scheduled, do you know?
    Ms. Everett. Yes. And we also gave them copies of the 
appointment card for the people that she was seeing that were 
preparing her for that, in addition to the appointment card for 
her surgery.
    Ms. Lofgren. And they simply just ignored it?
    Ms. Everett. Just ignored it completely.
    Ms. Lofgren. Well, this is a little sideline. California 
State Prison System Health Care is now being run by Bob Sillen, 
the guy who used to be in charge for Santa Clara County Jails 
when I was on the board of supervisors. And this sounds like 
the sort of situation where either we get our act together, or 
some Federal judge is going to take somebody like Bob Sillen 
and say, You are in charge now. And I think those are the two 
choices. Certainly, we want to get to the bottom of whether 
there are things that have not been reported. But, obviously, 
Mr. Castaneda has suffered a tremendous amount and he would not 
show up in a statistic.
    And so I think the suggestions made, Mr. Jawetz, are 
excellent ones.
    Certainly, Ms. Little, the need to make mandatory changes, 
not just advisory, are obviously important.
    And, Dr. Keller, your testimony particularly, I have always 
thought it was a mistake--and I didn't vote for it when we 
changed the rules--that the default is that someone seeking 
freedom in the U.S. is incarcerated.
    You know, our policy is that we are the beacon of hope and 
freedom in the world, and that those people who are fleeing 
from oppression, from communism can come to this free place and 
breathe free air. And now our policy is: and then go to jail. 
So certainly there need to be rules in place so that you have 
people who show up, who aren't gaming the system. That has 
happened in some cases. But it is not necessary to incarcerate 
people in every case. And certainly people who have been 
traumatized and abused are not going to do well in a custodial 
setting many, many times.
    So I would just like to say that this is, I think, one of 
the most important hearings that I have had an opportunity to 
participate in, in the 13 years that I have been in Congress, 
and I hope that it will be the first step in making necessary 
changes.
    And I appreciate all of you, especially those who have lost 
a loved one, for sharing a very painful part of your life in an 
effort to set things right. And I can't promise success, but I 
can promise efforts that are equal to the sacrifice you have 
made to be here and to share your thoughts.
    So, with that, thank you, on behalf of the Subcommittee, 
and this hearing is adjourned.
    [Whereupon, at 4:23 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's hearing on 
immigration detainee medical care.
    According to the General Accounting Office (GAO), nearly 300,000 
men, women, and children were detained by Immigration and Customs 
Enforcement (ICE) in 2006, triple the amount in 2001 when less than 
100,000 were detained.
    With the large increase of detainees in ICE custody, it is 
incumbent upon this Congress to ensure that ICE is properly executing 
its responsibility of providing safe and humane treatment of detainees 
in their custody.
    Recent reports suggest that ICE is not doing its job.
    In just the last few months, there have been several reports of 
individuals detained by ICE that suggest unsafe and inhumane treatment 
in ICE or contracted detention facilities. For example, the Boston 
Globe recently reported the case of a man who died in ICE custody due 
to epilepsy complications, despite the fact that his sister twice 
attempted to provide necessary medication to detention officials, 
according to his family. His sister says she was turned away both 
times. Another reported case involves Victoria Arellano who was taken 
off HIV drugs while in custody and subsequently died after serious 
complications and lack of appropriate medical care for several months. 
Reports indicate that fellow inmates tended to as much care as they 
could possibly provide on their own and repeatedly informed detention 
officials of Arellano's illness.
    These and other cases have spawned questions from several Members 
of Congress, but so far, few answers have been provided.
    There are two critical questions I hope we can address today. 
First, are the medical care standards employed by ICE satisfactory so 
as to create an environment that supports safe and humaen treatment of 
individuals in ICE custody? Second, if those standards are adequate, 
are they being implemented in an appropriate manner?
    After a preliminary review of the standards and the various reports 
on the administration of medical care, it appears we have problems on 
both levels.
    The DIHS Medical Dental Detainee Covered Services Package 
specifically states that medical care in ICE detention facilities is to 
be provided primarily for emergency care. Care for ``[ac]cidental or 
traumatic injuries incurred while in the custody . . . and acute 
illnesses'' is not required, but simply ``reviewed for appropriate 
care.'' Care for other illnesses, including pre-existing illnesses that 
are serious but not life-threatening, is also not automatic, but simply 
reviewable for appropriate care. Furthermore, these reviews are 
conducted in Washington, D.C. by nurses, not physicians, who are away 
from the patient and simply reviewing paperwork submitted by other 
health care professionals recommending such care.
    With this policy, it is no wonder there are reports of unsafe and 
inhumane medical treatment in ICE custody. This policy fails to 
recognize a fundamental principle of medical care in detention--the 
patient is detained and there is no other option but care authorized by 
ICE. Yet, the policy only insures emergency care and considers other 
care, even in serious cases, on a case-by-case basis.
    I hope that today's hearing will help us further understand and 
clarify the problems that exist in providing medical care to those in 
ICE custody so that we may begin to find solutions to what appears to 
be a very serious problem.

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    I have read reports collected regarding medial care provided to 
individuals in ICE custody and, frankly, I am very concerned.
    There is the case of Reverand Joseph Nosius Dantica, a courageous 
man who was a minister for decades in Port-a-Prince, Haiti. After 
watching his neighbors get killed and gang members threatening his 
life, Rev. Dantica, at the age of 81 and after 50 years of service to 
his community, fled Haiti to seek safe haven in the United States where 
he was a frequent visitor for 30 years. When he arrived in the United 
States, he had a valid passport and visa, but decided that this time he 
would need to seek asylum. He was immediately arrested and detained and 
his heart medication was confiscated. He tried and tried to let as many 
people know about his need for medication to no avail. The problems 
that followed are more than gruesome. 15 minutes went by before medical 
care was provided when Rev. Dantica appeared to be having a seizure and 
vomited. A nurse accused him of faking his illness and there was 
inadequate care at a hospital hours later. With this lack of medical 
attention, it wasn't long before Rev. Dantica passed away.
    Then there's the case of Mr. Abdoullai Sall, who, I am told, also 
died in detention after being denied necessary medication despite 
several requests by him and his attorney. Mr. Sall eventually collapsed 
and died in detention without ever receiving his medication. I am told 
that efforts to investigate the case by the ACLU have been stymied by 
DHS.
    There's the case of Victoria Arellano, a transgender, HIV-positive 
individual who was held in ICE custody for two months without 
medication she was taking prior to detention. Weeks before her death, 
medical staff told her that her T cells were down and simply prescribed 
an antibiotic, a drug that doctors say is not the choice for HIV 
patients. I am told that over the next few days, Arellano began 
vomiting blood and suffering from diarrhea and fellow detainees took 
care of her. They lodged numerous complaints about the lack of medical 
care, and ultimately began chanting ``hospital'' until she was finally 
taken to the hospital, where she died on July 20, 2007. Again I am told 
that DHS has stymied efforts to get answers on this case, including the 
transfer of two detainees who spoke to the press about also being 
denied access to their own HIV medications.
    Sadly, the list of horror stories goes on. I want answers to these 
horrendous cases. How is this possible in American detention centers 
and what can we do to prevent this?

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Responses to Post-Hearing Questions from U.S. Immigration and Customs 
                              Enforcement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
